Case: 19-10743

Document: 00515652147

Page: 1

Date Filed: 11/25/2020

tHmteti States Court of Sppeate
for tlje Jftftf) Circuit
No. 19-10743

Julian P. Gutierrez, III,
Petitioner—Appellant,
versus
Bobbie Lumpkin, Lorie Davis, Director, Texas
Department of Criminal Justice, Correctional
Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-1895

ON PETITION FOR REHEARING EN BANC
Before Dennis, Southwick, and Engelhardt, Circuit Judges.
PER CURIAM:

(X) Treating the Petition for Rehearing En Banc as a Motion for
Reconsideration, the Motion for Reconsideration is DENIED. No
member of the panel nor judge in regular active service of the court
having requested that the court be polled on Rehearing En Banc (Fed.
R. App. P. and 5th Cir. R. 35), the Petition for Rehearing En Banc is
DENIED.

Case: 19-10743

Document: 00515652147

Page: 2

Date Filed: 11/25/2020

( ) Treating the Petition for Rehearing En Banc as a Motion for
Reconsideration, the Motion for Reconsideration is DENIED. The
court having been polled at the request of one of the members of the
court and a majority of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R. App. P. and 5™
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

ENTERED FOR THE COURT:
/s/ James L. Dennis
United States Circuit Judge

Case: 19-10743

Document: 00515348127

Page: 1

Date Filed: 03/17/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10743

JULIAN GUTIERREZ, III,
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeal from the United States District Court
for the Northern District of Texas

ORDER:
Julian P. Gutierrez, III, Texas prisoner # 2063107, was convicted of
robbery, pleaded true to an enhancement paragraph, and was sentenced to
serve 20 years in prison. Now, following the district court’s denial of his 28
U.S.C. § 2254 habeas corpus petition, he moves this court for a certificate of
appealability (COA) on several claims of ineffective assistance of counsel
related to counsels’ investigation of the offense, a pretrial lineup, motions for
a directed verdict and a new trial, counsels’ not subpoenaing an unnamed
investigator, and the issues raised on appeal as well as authorization to
proceed in forma pauperis (IFP) on appeal.
To obtain a COA, one must make “a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy that burden, he must

Case: 19-10743

Document: 00515348127

Page: 2

Date Filed: 03/17/2020

No. 19-10743
show that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong,” Slack v. McDaniel, 529 U.S. 473,
484 (2000), or that the issues he presents are “adequate to deserve
encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 336
(2003) (internal quotation marks and citation omitted). Because Gutierrez has
not met these standards, his COA and IFP motions are DENIED.

/s/ James L. Dennis
JAMES L. DENNIS
UNITED STATES CIRCUIT JUDGE

Mm
A True Copy
Certified order issued Mar 17, 2020

dwt* W. Gm*c*

Clerk, itfs. Court of Ap peals, Fifth Circuit

2

Case 3:18-cv-01895-G-BN Document 22 Filed 06/04/19

Page 1 of 1 PagelD 773

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

JULIAN P. GUTIERREZ, III,
Petitioner,
VS.
LORIE DAVIS, Director, TDCJ-CID,
Respondent.

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
3:18-CV-1895-G (BN)

TUDGMENT
This action came on for consideration by the court, and the issues having been
duly considered and a decision duly rendered,
It is ORDERED, ADJUDGED and DECREED that:
1.

The petition for habeas corpus relief pursuant to 28 U.S.C. § 2254 is

DENIED with prejudice.
2.

The clerk shall transmit a true copy of this judgment and the order

accepting the findings and recommendation of the United States Magistrate Judge to
all parties.
June 4, 2019.

Senior United States District Judge

Case 3:18-cv-01895-G-BN Document 21 Filed 06/04/19

Page lot 2 PagelD 771

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
JULIAN P. GUTIERREZ, III,
Petitioner,
VS.
LORIE DAVIS, Director, TDCJ-CID,
Respondent.

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
3:18-CV-1895-G (BN)

ORDER ACCEPTING FINDINGS. CONCLUSIONS. AND
RECOMMENDATION OF THE UNITED STATES MAGISTRATE TUDGE
The United States Magistrate Judge made findings, conclusions, and a
recommendation in this case. Petitioner filed objections, and the district court has
made a de novo review of those portions of the proposed findings and
recommendation to which objection was made. The objections are overruled, and the
court ACCEPTS the findings, conclusions, and recommendation of the United States
Magistrate Judge.
Considering the record in this case and pursuant to Federal Rule of Appellate
Procedure 22(b), Rule 11(a) of the Rules Governing §§ 2254 and 2255 proceedings
in the United States District Court, and 28 U.S.C. § 2253(c), the court DENIES a
certificate of appealability. The court adopts and incorporates by reference the
magistrate judge’s findings, conclusions, and recommendation filed in this case in
support of its finding that the petitioner has failed to show (1) that reasonable jurists

Case 3:18-cv-01895-G-BN Document 21 Filed 06/04/19

Page 2 of 2 PagelD 772

would find this court’s “assessment of the constitutional claims debatable or wrong,”
or (2) that reasonable jurists would find “it debatable whether the petition states a
valid claim of the denial of a constitutional right” and “debatable whether [this
court] was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484
(2000).*
If petitioner files a notice of appeal,
( )

the petitioner may proceed in forma pauperis
on appeal.

(X)

petitioner must pay the $505.00 appellate
filing fee or submit a motion to proceed in
forma pauperis.

SO ORDERED.
June 4, 2019.

Senior United States District Judge

Rule 11 of the Rules of Governing §§ 2254 and 2255 Proceedings reads as follows:
(a) Certificate of Appealability. The district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant. Before entering the final
order, the court may direct the parties to submit arguments on whether a certificate should
issue. If the court issues a certificate, the court must state the specific issue or issues that
satisfy the showing required by 28 U.S.C. § 2253(c)(2). If the court denies a certificate, the
parties may not appeal the denial but may seek a certificate from the court of appeals under
Federal Rule of Appellate Procedure 22. A motion to reconsider a denial does not extend the
time to appeal.
(b) Time to Appeal. Federal Rule of Appellate Procedure 4(a) governs the time to
appeal an order entered under these rules. A timely notice of appeal must be filed even
if the district court issues a certificate of appealability.

-2 -

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 1 of 22 PagelD 744

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
JULIAN P. GUTIERREZ, III
(TDCJ No. 2063107),
Petitioner,

§
§
§
§
V.
§
§
LORIE DAVIS, Director
§
Texas Department of Criminal Justice, §
Correctional Institutions Division,
§
Respondent.
§

No. 3:18-cv-1895-G-BN

FINDINGS, CONCLUSIONS, AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
Petitioner Julian P. Gutierrez, III, a Texas inmate, filed a pro se application for
writ of habeas corpus under 28 U.S.C. § 2254. See Dkt. No. 2. This resulting action has
been referred to the undersigned United States magistrate judge for pretrial
management under 28 U.S.C. § 636(b) and a standing order of reference from Senior
United States District Judge A. Joe Fish. The State filed a response opposing relief. See
Dkt. No. 17. Gutierrez filed a reply. See Dkt. No. 18. For the reasons explained below,
the Court should deny Gutierrez’s federal habeas petition.
Applicable Background
After a jury found Gutierrez guilty of robbery, he “pleaded true to one
enhancement paragraph” and “the trial court assessed punishment at twenty years’
imprisonment.” Gutierrez III v. State, No. 05-16-00755-CR, (Tex. App.—Dallas May 31,
2017, pet. refd.); Dkt. No. 16-3. The Dallas Court of Appeals affirmed Gutierrez’s
conviction as modified. Id. (“We modify the judgment to show the punishment was
1

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 2 of 22 PagelD 745

assessed by the trial court .... Accordingly, we modify the sections of the judgment
entitled ‘plea to 1st enhancement paragraph’ and ‘findings on 1st enhancement
paragraph’ to show ‘True,’ and modify the section entitled ‘degree of offense’ to show
‘2nd degree felony.’”). The Texas Court of Criminal Appeals (“CCA”) refused Gutierrez’s
petition for discretionary review. See Gutierrez v. State, No. PD-0611-17 (Tex. Crim.
App. 2017).
Gutierrez filed an initial state application for writ of habeas corpus, Dkt. No. 1617 at 23-41, which the CCA dismissed because his conviction was not yet final. Dkt.
No. 16-16. He filed a second state application claiming that his trial and appellate
attorneys were constitutionally ineffective on numerous issues. Dkt. No. 16-19 at 2544. On April 25, 2018, the CCA denied Gutierrez’s application without written order
on the findings of the trial court. See Ex parte Gutierrez, WK-87,466-02 (Tex. Crim.
App. April 25, 2018); Dkt. No. 16-18.
In his timely-filed federal habeas application, Gutierrez raises the grounds for
relief he raised in his second state application. Dkt. No. 2 at 6-9.
Legal Standards and Analysis
I.

Claims
Gutierrez raises seven claims of ineffective assistance of trial counsel and one

claim of ineffective assistance of appellate counsel. See Id.
Where a state court has already rejected a claim on the merits, a federal court
may grant habeas relief on that claim only if the state court adjudication:

2

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 3 of 22 PagelD 746

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
28 U.S.C. § 2254(d).
A state court adjudication on direct appeal is due the same deference under
Section 2254(d) as an adjudication in a state post-conviction proceeding. See, e.g.,
Dowthitt v. Johnson, 230 F.3d 733, 756-57 (5th Cir. 2000) (a finding made by the CCA
on direct appeal was an “issue ... adjudicated on the merits in state proceedings,” to be
“examine [d]... with the deference demanded by [the Antiterrorism and Effective Death
Penalty Act of 1996 (the “AEDPA”)]” under “28 U.S.C. § 2254(d)”).
A state court decision is “contrary” to clearly established federal law if “it relies
on legal rules that directly conflict with prior holdings of the Supreme Court or if it
reaches a different conclusion than the Supreme Court on materially indistinguishable
facts.” Busby v. Dretke, 359 F.3d 708, 713 (5th Cir. 2004); see also Lopez v. Smith, 574
U.S.__ , 135 S. Ct. 1, 2 (2014) (per curiam) (“We have emphasized, time and time
again, that the AEDPA prohibits the federal courts of appeals from relying on their
own precedent to conclude that a particular constitutional principle is ‘clearly
established.’” (citation omitted)).
A decision constitutes an “unreasonable application” of clearly established
federal law if “the state court identifies the correct governing legal principle from [the
Supreme] Court’s decisions but unreasonably applies that principle to the facts of the
3

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 4 of 22 PagelD 747

prisoner’s case.” Williams v. Taylor, 529 U.S. 362,413 (2000); see also Pierre v. Vannoy,
891 F.3d 224, 227 (5th Cir. 2018) (a petitioner’s lack of “Supreme Court precedent to
support” a ground for habeas relief “ends [his] case” as to that ground).
“For purposes of § 2254(d)(1), an unreasonable application of federal law is
different from an incorrect application of federal law.... A state court’s determination
that a claim lacks merit precludes federal habeas relief so long as fairminded jurists
could disagree on the correctness of the state court’s decision.” Harrington v. Richter,
562 U.S. 86, 101 (2011) (citations and internal quotation marks omitted). “Under §
2254(d), a habeas court must determine what arguments or theories supported or ...
could have supported, the state court’s decision; and then it must ask whether it is
possible fairminded jurists could disagree that those arguments or theories are
inconsistent with the holding in a prior decision of [the Supreme] Court.” Id. at 102
(internal quotation marks omitted); see Evans v. Davis, 875 F.3d 210, 216 (5th Cir.
2017) (recognizing that Section 2254(d) tasks courts “with considering not only the
arguments and theories the state habeas court actually relied upon to reach its
ultimate decision but also all the arguments and theories it could have relied upon”
(citation omitted)).
The Supreme Court has further explained that “[evaluating whether a rule
application was unreasonable requires considering the rule’s specificity. The more
general the rule, the more leeway courts have in reaching outcomes in case-by-case
determinations.” Richter, 562 U.S. at 101 (internal quotation marks omitted). And
“even a strong case for relief does not mean the state court’s contrary conclusion was
4

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 5 of 22 PagelD 748

unreasonable.” Id. at 102. The Supreme Court has explained that, “[i]f this standard
is difficult to meet, that is because it was meant to be,” where, “[a]s amended by
AEDPA, § 2254(d) stops short of imposing a complete bar on federal court relitigation
of claims already rejected in state proceedings,” but “[i]t preserves authority to issue
the writ in cases where there is no possibility fairminded jurists could disagree that the
state court’s decision conflicts with this Court’s precedents,” and “[i]t goes no further.”
Id. Thus, “[a]s a condition for obtaining habeas corpus from a federal court, a state
prisoner must show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.” Id.
at 103; accord Burt v. Titlow, 571 U.S. 12, 20 (2013) (“If this standard is difficult to
meet - and it is - that is because it was meant to be. We will not lightly conclude that
a State’s criminal justice system has experienced the extreme malfunction for which
federal habeas relief is the remedy.” (internal quotation marks, brackets, and citations
omitted)).
As to Section 2254(d)(2)’s requirement that a petitioner show that the state court
adjudication “resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding,” the
Supreme Court has explained that “a state-court factual determination is not
unreasonable merely because the federal habeas court would have reached a different
conclusion in the first instance” and that federal habeas relief is precluded even where
the state court’s factual determination is debatable. Wood u. Allen, 558 U.S. 290, 301,
5

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 6 of 22 PagelD 749

303 (2010). Under this standard, “it is not enough to show that a state court’s decision
was incorrect or erroneous. Rather, a petitioner must show that the decision was
objectively unreasonable, a substantially higher threshold requiring the petitioner to
show that a reasonable factfinder must conclude that the state court’s determination
of the facts was unreasonable.” Batchelor v. Cain, 682 F.3d 400, 405 (5th Cir. 2012)
(brackets and internal quotation marks omitted).
The Court must presume that a state court’s factual determinations are correct
and can find those factual findings unreasonable only where the petitioner “rebut [s]
the presumption of correctness by clear and convincing evidence.” 28 U.S.C. §
2254(e)(1); Gardner v. Johnson, 247 F.3d 551, 560 (5th Cir. 2001). This presumption
applies not only to explicit findings of fact but also “to those unarticulated findings
which are necessary to the state court’s conclusions of mixed law and fact.” Valdez v.
Cockrell, 274 F.3d 941, 948 n.ll (5th Cir. 2001); see also Richter, 562 U.S. at 98
(“ [Determining whether a state court’s decision resulted from an unreasonable legal
or factual conclusion does not require that there be an opinion from the state court
explaining the state court’s reasoning.”); Pondexter v. Dretke, 346 F.3d 142, 148 (5th
Cir. 2003) (“a federal habeas court is authorized by Section 2254(d) to review only a
state court’s ‘decision,’ and not the written opinion explaining that decision” (quoting
Neal v. Puckett, 286 F.3d 230, 246 (5th Cir. 2002) (en banc) (per curiam))); cf. Evans,
875 F.3d at 216 n.4 (even where “[t]he state habeas court’s analysis [is] far from
thorough,” a federal court “may not review [that] decision de novo simply because [it

6

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 7 of 22 PagelD 750

finds the state court’s] written opinion ‘unsatisfactory’” (quoting Neal, 286 F.3d at
246)).
Section 2254 thus creates a “highly deferential standard for evaluating state
court rulings, which demands that state-court decisions be given the benefit of the
doubt.” Woodford v. Visciotti, 537 U.S. 19, 24 (2002). To overcome this standard, a
petitioner must show that “there was no reasonable basis for the state court to deny
relief.” Richter, 562 U.S. at 98.
That is, a Section 2254 petitioner must, in sum, “show, based on the state-court
record alone, that any argument or theory the state habeas court could have relied on
to deny [him] relief would have either been contrary to or an unreasonable application
of clearly established federal law as determined by the Supreme Court.” Evans, 875
F.3d at 217.
A.

Ineffective Assistance

Gutierrez makes seven claims of ineffective assistance of trial counsel.
Specifically, Gutierrez argues counsel was ineffective by (1) failing to visit the crime
scene, (2) failing to conduct an independent pretrial investigation, (3) failing to request
a pre-trial in-court identification line-up, (4) failing to effectively cross-examine
prosecution witnesses, (5) failing to subpoena the crime scene investigator, (6) failing
to move for a directed verdict, and (7) failing to request a new trial based on identity
issues. See Dkt. No. 2 at 6-9; Dkt. No. 3. Gutierrez additionally claims that his

7

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 8 of 22 PagelD 751

appellate counsel was ineffective for failing to raise a specific issue on appeal. See Dkt.
No. 2 at 6; Dkt. No. 3 at 11.
The Court reviews claims concerning the alleged ineffective assistance of counsel
(“IAC”), whether at trial or on direct appeal, under the two-prong test established in
Strickland v. Washington, 466 U.S. 668 (1984). Under Strickland, a habeas petitioner
must demonstrate that the performance of his attorney fell below an objective standard
of reasonableness. See id. at 687-88. A petitioner must prove entitlement to relief by
a preponderance of the evidence. James v. Cain, 56 F.3d 662, 667 (5th Cir. 1995). To
be cognizable under Strickland, trial counsel’s error must be “so serious that counsel
was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Id. at 687; see also Buck v. Davis, 580 U.S.

, 137 S. Ct. 759, 775

(2017) (reaffirming that “[i]t is only when the lawyer’s errors were ‘so serious that
counsel was not functioning as the “counsel” guaranteed ... by the Sixth Amendment’
that Strickland’s first prong is satisfied” (citation omitted)).
The petitioner also must prove that he was prejudiced by his attorney’s
substandard performance. See Strickland, 466 U.S. at 687, 692. “This requires showing
that counsel’s errors were so serious as to deprive the defendant of a fair trial, a trial
whose result is reliable.” Id. at 687.
[Bjecause of the risk that hindsight bias will cloud a court’s review of
counsel’s trial strategy, “a court must indulge a strong presumption
that counsel’s conduct falls within the wide range of reasonable
professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action
might be considered sound trial strategy.”
8

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 9 of 22 PagelD 752

Feldman v. Thaler, 695 F.3d 372, 378 (5th Cir. 2012) (quoting Strickland, 466 U.S. at
689).
“A conscious and informed decision on trial tactics and strategy cannot be the
basis for constitutionally ineffective assistance of counsel unless it is so ill chosen that
it permeates the entire trial with obvious unfairness.” Cotton v. Cockrell, 343 F.3d 746,
752-53 (5th Cir. 2003). Moreover,"[j]ust as there is no expectation that competent
counsel will be a flawless strategist or tactician, an attorney may not be faulted for a
reasonable miscalculation or lack of foresight or for failing to prepare for what appear
to be remote possibilities.” Richter, 562 U.S. at 110. “The Supreme Court has
admonished courts reviewing a state court’s denial of habeas relief under AEDPA that
they are required not simply to give [the] attorney’s the benefit of the doubt,... but to
affirmatively entertain the range of possible reasons [petitioner’s] counsel may have
had for proceeding as they did.” Clark v. Thaler, 673 F.3d 410, 421 (5th Cir. 2012)
(internal quotation marks omitted).
Therefore, on habeas review under AEDPA, “if there is any ‘reasonable
argument that counsel satisfied Strickland’s deferential standard,’ the state court’s
denial must be upheld.” Rhoades u. Davis, 852 F.3d 422, 432 (5th Cir. 2017) (quoting
Richter, 562 U.S. at 105).
To demonstrate prejudice, a habeas petitioner “must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability

9

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 10 of 22 PagelD 753

sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at 694. Thus,
“the question is not whether a court can be certain counsel’s performance had no effect
on the outcome or whether it is possible a reasonable doubt might have been
established if counsel acted differently.” Richter, 562 U.S. at 111. “Instead, Strickland
asks whether it is ‘reasonably likely’ the result would have been different,” which “does
not require a showing that counsel’s actions ‘more likely than not altered the outcome,’
but the difference between Strickland’s prejudice standard and a moreprobable-than-not standard is slight and matters ‘only in the rarest case.” Id. at 111-12
(quoting Strickland, 466 U.S. at 693, 696, 697). “The likelihood of a different result
must be substantial, not just conceivable.” Richter, 562 U.S. at 112.
IAC claims are considered mixed questions of law and fact and are therefore
analyzed under the “unreasonable application” standard of 28 U.S.C. § 2254(d)(1). See
Gregory v. Thaler, 601 F.3d 347, 351 (5th Cir. 2010). Where the state court adjudicated
ineffective-assistance claims on the merits, this Court must review a habeas
petitioner’s claims under the “doubly deferential” standards of both Strickland and
Section 2254(d). Cullen v. Pinholster, 563 U.S. 170, 190, 202 (2011); see also Rhoades,
852 F.3d at 434 (“Our federal habeas review of a state court’s denial of an
ineffective-assistance-of-counsel claim is ‘doubly deferential’ because we take a highly
deferential look at counsel’s performance through the deferential lens of § 2254(d).”
(citation omitted)).

10

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 11 of 22 PagelD 754

In such cases, the “pivotal question” for this Court is not “whether defense
counsel’s performance fell below Stricklands standard”; it is “whether the state court’s
application of the Strickland standard was unreasonable.” Richter, 562 U.S. at 101; see
also id. at 105 (“Establishing that a state court’s application of Strickland was
unreasonable under § 2254(d) is all the more difficult. The standards created by
Strickland and § 2254(d) are both ‘highly deferential,’ and when the two apply in
tandem, review is ‘doubly’ so.” (internal quotation marks and citations omitted)).
In other words, AEDPA does not permit a de novo review of state counsel’s
conduct in these claims under Strickland. See id. at 101-02. Instead, on federal habeas
review of a claim that was fully adjudicated in state court, the state court’s
determination is granted “a deference and latitude that are not in operation when the
case involves review under the Strickland standard itself.” Id. at 101; see also Woods
v. Etherton, 578 U.S.

., 136 S. Ct. 1149, 1151 (2016) (per curiam) (explaining that

federal habeas review of ineffective-assistance-of-counsel claims is “doubly deferential”
“because counsel is ‘strongly presumed to have rendered adequate assistance and made
all significant decisions in the exercise of reasonable professional judgment’”; therefore,
“federal courts are to afford ‘both the state court and the defense attorney the benefit
of the doubt’” (quoting Burt, 571 U.S. at 22, 15)); Johnson v. Sec’y, DOC, 643 F.3d 907,
910-11 (11th Cir. 2011) (“Double deference is doubly difficult for a petitioner to
overcome, and it will be a rare case in which an ineffective assistance of counsel claim

11

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 12 of 22 PagelD 755

that was denied on the merits in state court is found to merit relief in a federal habeas
proceeding.”).
A counsel’s performance on appeal is judged under the two-prong Strickland
test. See Green v. Johnson, 160 F.3d 1029, 1043 (5th Cir. 1998). “On appeal, effective
assistance of counsel does not mean counsel who will raise every nonfrivolous ground
of appeal available.” Id. at 1043. “Rather, it means, as it does at trial, counsel
performing in a reasonably effective manner.” Id. To demonstrate prejudice, a
petitioner must “show a reasonable probability that, but for his counsel’s unreasonable
failure . .., he would have prevailed on his appeal.” Briseno v. Cockrell, 274 F.3d 204,
207 (5th Cir.2001) (citations omitted). Additionally, appellate counsel “need not (and
should not) raise every nonfrivolous claim, but rather may select from among them in
order to maximize the likelihood of success on appeal.” Smith v. Robbins, 528 U.S. 259,
288 (2000). Although it is “possible to bring a Strickland claim based on counsel’s
failure to raise a particular claim ... it is difficult to demonstrate that counsel was
incompetent.” Id.
Regarding Gutierrez’s first two claims, he alleges that his counsel was
ineffective for “failing to visit the crime scene,” Dkt. No 3 at 5, and “failing to conduct
an independent pretrial investigation,” id. at 6. He alleges that, had counsel visited the
crime scene and conducted an independent investigation, counsel would have been able
to “effectively cross-examine the complainant” regarding his version of the events of the
crime, been able to locate other witnesses, and check businesses near to the crime

12

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 13 of 22 PagelD 756

scene for possible video footage that would exclude Petitioner as the perpetrator of the
crime, and further, would have known that there was no DNA or fingerprint evidence
matching Petitioner to the crime. Id. Gutierrez’s claims are vague and conclusory. He
only lists actions that he believes counsel should have, but failed, to take and then
argues that this failure caused his counsel to provide ineffective assistance. He
provides no support from the record to substantiate any of his claims, which,
unsupported by evidence from the record, are insufficient. See Schlang v. Heard, 691
F.2d 796, 799 (5th Cir. 1982) (stating “[m]ere conclusory statements do not raise a
constitutional issue in a habeas case.”).
And, specifically as to Gutierrez’s claim that counsel failed to locate witnesses,
“complaints of uncalled witnesses are not favored in federal habeas corpus review
because allegations of what the witness would have testified are largely speculative.”
Evans v. Cockrell, 285 F.3d 370, 377 (5th Cir. 2002) (citations omitted). Petitioners
alleging ineffective assistance of counsel must “name the witness, demonstrate that the
witness was available to testify and would have done so, set out the content of the
witness’s proposed testimony, and show that the testimony would have been favorable
to a particular defense.” Day v. Quarterman, 566 F.3d 527, 538 (5th Cir. 2009).
Gutierrez fails to meet any of these four requirements. See Dkt. No. 2 at 6-9; Dkt. No.
3 at 5-6.
Regarding the lack of DNA and fingerprint evidence, neither was used at trial
to connect Gutierrez to the crime scene with regard to the stolen vehicle or ensuing
physical altercation with the complainant. See generally Dkt. Nos. 16-6,16-7,16-8. The
13

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19 Page 14 of 22 PagelD 757

only use of this type of evidence at trial came in solely to demonstrate that Gutierrez,
as the defendant at trial, was the same person who was arrested at the crime scene.
See Dkt. No. 16-8 at 50-53.
And Gutierrez fails to demonstrate how his attorneys’ supposed deficient
performance on these two claims prejudiced him. He has failed to “affirmatively prove”
that he was prejudiced by his counsels’ alleged failure to visit the crime scene or
conduct an independent investigation. This is insufficient. See Strickland, 466 U.S. at
693. Gutierrez makes an unsupported statement that, had his counsel conducted an
independent investigation, “[t]his would have resulted in a nolle prosequi or dismissal
with prejudice.” Dkt. No. 3 at 6. Presenting “conclusory allegations” of deficient
performance or prejudice is insufficient to meet the Strickland test. See Miller u.
Johnson, 200 F.3d 274, 282 (5th Cir. 2000). Gutierrez has failed to demonstrate that
his counsel was ineffective regarding these claims. Strickland, 466 U.S. at 687-88.
Next, Gutierrez claims that his counsel was ineffective for failing to request a
pre-trial in-court identification line-up. See Dkt. No. 2 at 7. He avers that “such a line­
up would have strategically placed the court on notice that it was not the Petitioner
who committed the act described by the complainant.” Id. But, when the complainant
was asked at trial if he could identify the perpetrator in the courtroom, he failed to
identify Gutierrez as the perpetrator. See Dkt. No. 16-7 at 125.
Gutierrez’s counsel addressed this claim in her affidavit in the state habeas
proceedings. In that affidavit, attorney Sarah Duncan stated:

14

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 15 of 22 PagelD 758

We filed, a motion, that was granted, to do a pre-trial Identification
Hearing. We decided against doing it. We knew the complaining witness
would have a hard time identifying Mr. Gutierrez and it would be good
for us in trial.
Dkt. No. 16-19 at 87.
“A conscious and informed decision on trial tactics and strategy cannot be the
basis for constitutionally ineffective assistance of counsel unless it is so ill chosen that
it permeates the entire trial with obvious unfairness.” Cotton v. Cockrell, 343 F.3d 746,
752-53 (5th Cir. 2003). Here, Gutierrez cannot demonstrate that counsel was deficient
for choosing to defer until trial the issue of the complainant’s identification or, in this
case, misidentification of Gutierrez. It is arguably more beneficial for Gutierrez’s
defense to have the complainant misidentify Gutierrez at trial, in front of the jury,
rather than at a pre-trial hearing. Assuming there had been a pretrial hearing at
which the complainant misidentified Gutierrez, this would have given the complainant
the opportunity to not make that misidentification again at trial. Thus, Gutierrez fails
to demonstrate either deficient performance or prejudice regarding this issue. See
Strickland, 466 U.S. at 687-88; Cotton, 343 F.3d at 752-53 .
Gutierrez next claims that his counsel failed to effectively cross-examine
prosecution witnesses. Specifically, Gutierrez argues that his counsel should have
“elicited the necessary information [from the complainant] to accentuate complainant’s
doubt as to the perpetrator.” And Gutierrez argues that his counsel “failed to ask
responding officer Valarezo if Petitioner had a bite-mark on his back and/or if
Petitioner was taken to the hospital for any injuries consistent with a vehicle crash and
15

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 16 of 22 PagelD 759

an air bag deployment.” Dkt. No. 3 at 10. Gutierrez further alleges that his counsel
“should have been able to elicit testimony from the responding officer that
demonstrated there were a group of males [at the crime scene] who any one could have
matched the generic description by the complainant.” Dkt. No. 2 at 8. Other than these
general statements, Gutierrez provides no further discussion or support from the
record for his claims. See id.] Dkt. No. 3 at 9-10. These conclusory allegations are
insufficient to demonstrate trail counsel was ineffective. See Miller, 200 F.3d at 282.
Furthermore, the record does not demonstrate that there was a group of males
at the crime scene, as Gutierrez alleges. Officer Valarezo testified that she encountered
one male witness when she reached the crime scene, see Dkt. No. 16-8 at 17, but that,
when she attempted to locate him after her initial investigation, he was gone and she
had no contact information for the witness, see id. at 29.
Additionally, Gutierrez fails to even allege, much less “affirmatively prove,” that,
had his counsel cross-examined the state’s witnesses any differently, the results of the
proceeding would have been different. Thus, this claim fails. See Strickland, 466 U.S.
at 693.
Gutierrez next claims that his counsel was ineffective for failing to subpoena the
“crime scene technician/investigator.” Dkt. No. 2 at 8; Dkt. No. 3 at 10. He states,
without any further evidence, that the investigator could have given testimony as to
the lack of DNA or fingerprint evidence as well as “any other investigative
developments [that] occurred ... that could demonstrate that Petitioner was the
assailant or to exonerate Petitioner.” Dkt. No. 2 at 8.
16

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 17 of 22 PagelD 760

“Because deciding whether to call witnesses is a strategic trial decision, ...
complaints of uncalled witness are ‘disfavored’ as a source of Strickland habeas
review.” United States v. Harris, 408 F.3d 189, 190 (5th Cir. 2005) (citing Buckley v.
Collins, 904 F.2d 263, 266 (5th Cir. 1990). And, as explained above, petitioners must
name the witness, demonstrate that the witness was available and would have
testified, set out the content of the witness’s proposed testimony, and show that the
testimony would have been favorable to petitioner’s defense. See Day, 566 F.3d at 538.
With regard to any crime scene investigator, Gutierrez fails to name that person or
demonstrate that he or she was available and would have testified. Gutierrez also fails
to set out the content of the proposed testimony or show that the testimony would have
been favorable to his defense. Furthermore, Gutierrez has failed to “affirmatively
prove” that he was prejudiced by his counsel’s failure to call the unnamed investigator
as a witness. See Strickland, 466 U.S. at 693. Gutierrez has failed to meet the standard
for demonstrating IAC under these circumstances.
Gutierrez also argues that his counsel was ineffective for failing to move for a
directed verdict on the basis that the state failed to demonstrate that he was the
person who stole the complainant’s vehicle. See Dkt. No. 2 at 8-9; Dkt. No. 3 at 10-11.
Although his counsel did move for a directed verdict, it was on a separate ground, not
related to Gutierrez’s identity as the perpetrator. See Dkt. No. 16-8 at 54. Gutierrez
argues that, because the victim failed to identify him at trial and in fact, identified
someone else in the courtroom as the perpetrator, his counsel was ineffective for failing

17

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 18 of 22 PagelD 761

to request a directed verdict on the basis of identity. See Dkt. No. 2 at 8-9; Dkt. No. 3
at 10-11.
To establish prejudice, Gutierrez must show that there is a reasonable
probability that, had counsel moved for a directed verdict, the motion would have been
granted. See United States v. Rosalez-Orozco, 8 F.3d 198, 199 (5th Cir. 1993). But
failure to move for directed verdict does not render counsel ineffective “where there was
possibly sufficient evidence of guilt to support a guilty verdict and no reason to believe
that such a motion would be granted.” Burston v. Caldwell, 506 F.2d 24, 28 (5th Cir.
1975).
Here, Gutierrez’s IAC claim fails due to witness testimony at trial. At trial, the
complainant stated that he never lost sight of the person who stole his vehicle, see Dkt.
No. 16-7 at 129-30, 133-34, and that he was fighting with that same person when the
police arrived and handcuffed them both, see id. at 153. And Officer Valarezo stated
that Gutierrez was the person she handcuffed after breaking up the fight between
Gutierrez and the complainant. See Dkt. No. 16-8 at 22-23. Thus, there was at least
“possibly sufficient” evidence in the record to demonstrate that Gutierrez was the
person who stole complainant’s vehicle. Because there was possibly sufficient evidence
of guilt to support a guilty verdict and no reason to believe that a directed verdict
motion would be granted, counsel was, at the least, not constitutionally ineffective for
not making such a request. See Burston, 506 F.2d at 28; see also Sones v. Hargett, 61

18

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 19 of 22 PagelD 762

F.3d 410, 415 n.5 (5th Cir. 1995) (“Counsel cannot be deficient for failing to press a
frivolous point”).
Relatedly, Gutierrez claims that his trial counsel was ineffective for failing to
request a new trial “based on complainant not identifying Petitioner as the perpetrator
nor there being any more nexus to connect Petitioner to the crime.” Dkt. No. 2 at 9.
This claim fails for the same reason as Gutierrez’s claim regarding a directed verdict.
The record shows that identification of Gutierrez was established through the
combined testimony of the complainant and Officer Valarezo. See Dkt. No. 16-7 at 12930, 133-34, 153. Thus, Gutierrez fails to show his counsel was ineffective for failing to
request a new trial. See Sones, 61 F.3d at 415 n.5.
Finally, Gutierrez avers that his appellate counsel provided ineffective
assistance by not raising on appeal a sufficiency-of-the-evidence claim. See Dkt. No. 2
at 6; Dkt. No. 3 at 11-12. Gutierrez does not elaborate on what he believes to be
insufficient with regard to the evidence. See id.
“The Constitution does not require appellate counsel to raise every nonfrivolous
ground that might be pressed on appeal.” Ellis v. Lynaugh, 873 F.2d 830, 840 (5th Cir.
1989) (citing Jones v. Barnes, 463 U.S. 745, 751-53 (1983)). Counsel has a professional
duty to choose among potential issues, according to his or her judgment as to their
merit and his tactical approach to maximize the likelihood of success on appeal. See
Jones, 463 U.S. at 752. Thus, in order to prove ineffective assistance of appellate
counsel, a petitioner must show that the decision not to raise an issue on appeal was

19

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 20 of 22 PagelD 763

objectively unreasonable. See United States v. Conley, 349 F.3d 837, 841 (5th Cir. 2003)
(citing Strickland, 466 U.S. at 687).
Gutierrez’s appellate counsel provided an affidavit in the state habeas
proceedings in which she stated the following:
I represented Julian Gutierrez on his appeal in cause
number 05-16-00755-CR. After a thorough examination of
the record, I could find no ground of error supported by the
record that could be raised on appeal beyond the issue that
I presented in the brief I filed. While appellant believes that
the weight of evidence was not legally sufficient to support
a conviction, my research on the topic lead me to believe
otherwise. There have been convictions upheld by the CCA
with less evidence than the evidence presented in this case.
Dkt. No. 16-19 at 96.
Gutierrez fails to show that his appellate counsel’s reasoning was objectively
unreasonable. He states, without further support, that “it was not sound strategy” to
fail to raise a sufficiency claim on appeal. Gutierrez’s claim fails to demonstrate the his
appellate was ineffective for not raising this claim on appeal and so fails. See Conley,
349 F.3d at 841. Furthermore, even if Gutierrez could demonstrate his counsel was
deficient for failing to raise this claim on appeal, he has failed to show that he was
prejudiced by the action. Gutierrez states, in conclusory fashion, that appellate counsel
was ineffective “and this ineffectiveness deprived [him] of an appeal or from effective
representation on appeal.” Gutierrez fails to affirmatively prove that he was prejudiced
by any alleged action.of his appellate counsel. Thus, this claim should be denied. See
Strickland, 466 U.S. at 693.

20

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 21 of 22 Page ID 764

And the undersigned has reviewed the state habeas court’s proceedings with
regard to these claims. Because the state habeas court’s decision to deny relief did not
involve an unreasonable application of Strickland, Gutierrez’s § 2254 petition should
be denied. Gutierrez also fails to show that the state-court decision was unreasonable
by showing “that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Strickland, 466 U.S. at
694. As such, Gutierrez fails to show there was no reasonable basis for the state court
to deny relief. See Richter, 526 U.S. at 98.
Recommendation
The Court should deny the application for a writ of habeas corpus.
A copy of these findings, conclusions, and recommendation shall be served on all
parties in the manner provided by law. Any party who objects to any part of these
findings, conclusions, and recommendation must file specific written objections within
14 days after being served with a copy. See 28 U.S.C. § 636(b)(1); FED. R. CIV. P. 72(b).
In order to be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and
specify the place in the magistrate judge’s findings, conclusions, and recommendation
where the disputed determination is found. An objection that merely incorporates by
reference or refers to the briefing before the magistrate judge is not specific. Failure
to file specific written objections will bar the aggrieved party from appealing the
factual findings and legal conclusions of the magistrate judge that are accepted or

21

Case 3:18-cv-01895-G-BN Document 19 Filed 05/14/19

Page 22 of 22 PagelD 765

adopted by the district court, except upon grounds of plain error. See Douglass v.
United Servs. Auto. Ass’n, 79 F.3d 1415, 1417 (5th Cir. 1996).
DATED: May 14, 2019

DAVID L. HORAN
UNITED STATES MAGISTRATE JUDGE

22

